Audit Report

Office of Justice Programs
Technology Grant to Smith and Wesson, Inc., 
Springfield, Massachusetts

Audit Report GR-70-05-012


May 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of a smart gun technology grant awarded by the Office of Justice Programs (OJP) to Smith and Wesson, Inc.  The goal of the smart gun technology project is to apply user recognition and authorization, or smart technologies, to prevent an unauthorized user from firing a law enforcement officers handgun.  Between 
May 2000 and December 2004, OJP awarded Smith and Wesson a grant totaling $3,082,477 to develop and test 50 prototype electronically-fired handguns and to research possible biometrics that would fit inside a handgun.  According to an OJP official, the smart gun technology project is not completed, but the work Smith and Wesson has done will further advance the technology. 

Smith and Wesson has developed an electronically-fired handgun using access code technology.1   The access code technology uses a     5-digit pin number to activate the handgun.  Testing of the handgun demonstrated that the prototype functioned in various environments:  commercial, industrial, and high voltage.  Testing the prototype in these environments is important to ensure that the handgun would not misfire if exposed to the magnetic fields within these environments.  At the time of our audit, Smith and Wesson was finalizing the miniaturization of the handgun electronics for later insertion of biometrics, which Smith and Wesson continues to research.  In a letter dated March 21, 2005, Smith and Wesson said that the miniaturization phase of the project was completed and prototypes were built to show the completed work.  However, the biometrics research will continue.

We found that Smith and Wesson generally complied with grant requirements.  We reviewed its compliance with six essential grant conditions and found material weakness in two of the six areas:   budget management and control and grant drawdowns.  

As a result of the deficiencies identified below, we recommend $36,218 of grant funds be put to better use.2

Smith and Wesson transferred funds between direct cost categories in excess of 10 percent of its total budget without prior OJP approval.

	Smith and Wesson did not obligate all grant funds prior to the end date of the grant.

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with Smith and Wesson officials and have included their comments in the report as applicable.  In addition, we requested a response to our draft audit report. 
   



Footnotes

An electronically-fired handgun involves a bullet-stacked cylinder fired by electric impulse instead of moving parts and heavy magazines.
	
	The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related finds and for a definition of funds to better use.